GR-80-98-009
U.S. DEPARTMENT OF JUSTICE
  

Audit Report
 
Office of Community Oriented Policing Services
Yellowstone County Sheriff's Office, Billings, Montana
 GR-80-98-009
January 26, 1998

 
EXECUTIVE SUMMARY
 
The Office of the Inspector General, Audit Division, has completed an audit of the
grant awarded by the U.S. Department of Justice (DOJ), Office of Community Oriented
Policing Services (COPS), to the Yellowstone County Sheriff's Office, Billings,
Montana. The Sheriff's Office received a grant of $450,000 to hire or rehire six sworn
police officers under the Universal Hiring Program (UHP). The purpose of the additional
officers is to enhance community policing efforts.
Budgeted funds for police services and the number of officers budgeted increased each
year since FY 1995, the year before the beginning of the grant. Funds provided under the
grant were used to enhance the Sheriff's Office's community policing efforts. The number
of officers performing community policing activities increased by the number of officers
funded under the grant.
However, we found the following weaknesses with regard to meeting the grant conditions:


- Unallowable costs totalling $33,512 were included in total costs incurred through
    August 1997. Unallowable costs included overtime, funding for a vacant position, and
    fringe benefits which were not shown in the COPS application. 
- The Department Initial Report was not prepared, nor was the Financial Status Report
    for the quarter ended December 1995. 
- The Department Annual Report and the Officer Progress Reports were not submitted
    timely. Also, the number of funded sworn deputy positions was understated by one in the
    Department Annual Report. 
- Provisions had not been made to fund the COPS deputy positions upon expiration of the
    grant.
#####